                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     Enhanced Coordination
                     Needed to Ensure Drinking
                     Water State Revolving
                     Funds Are Used to Help
                     Communities Not Meeting
                     Standards
                     Report No. 12-P-0102               December 1, 2011




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Janet Kasper
                                                   Khadija Walker
                                                   Melinda Burks
                                                   Kimberly Crilly
                                                   Claire McWilliams
                                                   LaTanya Scott




Abbreviations

DWNIMS        Drinking Water National Information Management System
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
IUP           Intended use plan
OIG           Office of Inspector General
PER           Program Evaluation Report
PWSS          Public Water System Supervision
SDWA          Safe Drinking Water Act, as amended in 1996
SDWIS         Safe Drinking Water Information System


Cover photo: Treated drinking water from a faucet. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-P-0102
                                                                                                     December 1, 2011
                        Office of Inspector General


                        At a Glance
Why We Did This Review                Enhanced Coordination Needed to Ensure
                                      Drinking Water State Revolving Funds Are Used to
Congress created the Drinking
Water State Revolving Fund
                                      Help Communities Not Meeting Standards
(DWSRF) program to assist
public water systems with              What We Found
upgrading infrastructure to ensure
the continued provision of safe       The DWSRF program is not taking full advantage of the data and tools that are
drinking water. The fund requires     available to identify noncompliant systems that may benefit from DWSRF
states to give priority to projects   funding. Although EPA and the states use DWSRF funds to assist communities
needed to protect public health       in achieving or maintaining compliance with drinking water standards, some
and ensure compliance with the        high-priority systems were not aware of the DWSRF program. SDWA requires
Safe Drinking Water Act               that funding priority be given to projects that address the most serious risk to
(SDWA), especially in locations       human health, are necessary to ensure SDWA compliance, and assist systems
with great economic need and the      most in need. However, noncompliance by some community systems with the
most serious health problems. We      highest number of health-based violations is being resolved through other
sought to determine whether           means, such as through consolidation with other systems, enforcement actions,
DWSRF funds are effectively           technical assistance, or other funding sources. One EPA region and two states
used to assist communities that       we reviewed stated that EPA does not have discussions with states about
do not meet standards.                specific systems in violation of SDWA when reviewing state intended use
                                      plans and project priority lists, or when conducting annual reviews. The EPA
Background                            DWSRF program should encourage enhanced coordination with enforcement
                                      programs and use available Agency enforcement data and tools to identify
Congress established the DWSRF        noncompliant systems that may benefit from DWSRF funding. These actions
program in the 1996 amendments        would assist in achieving the Agency’s strategic objective of making water safe
to SDWA. The goal of the              to drink.
DWSRF program is to provide
states with the means to establish     What We Recommend
a revolving fund to provide low-
cost loans to public water            We recommend that the Assistant Administrator for Water include in the
systems, and other funding            annual regional review of states checklist an assessment of the coordination
through set-asides, to further        between state DWSRF and enforcement programs. We also recommend that
public health protection under        the Assistant Administrator create a national intended use plan review checklist
SDWA. In fiscal year 2010, the        that includes a requirement to assess coordination between state DWSRF and
U.S. Environmental Protection         enforcement programs. Further, we recommend that the Assistant
Agency (EPA) allotted                 Administrator identify and implement actions to enhance coordination between
$1.36 billion for state DWSRF         regional and state DWSRF and Public Water System Supervision programs.
programs.                             EPA agreed with all of our recommendations and provided milestone dates for
                                      each recommendation.
For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20111201-12-P-0102.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                 THE INSPECTOR GENERAL



                                        December 1, 2011

MEMORANDUM

SUBJECT:	 Enhanced Coordination Needed to Ensure Drinking Water State Revolving Funds
          Are Used to Help Communities Not Meeting Standards
          Report No. 12-P-0102


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Nancy Stoner
               Acting Assistant Administrator for Water


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the Agency provided a corrective action plan with milestone
dates for addressing the recommendations. Therefore, a response to the final report is not
required. The Agency should track corrective actions not implemented in the Management Audit
Tracking System. We have no objections to the further release of this report to the public. The
report will be available at http://www.ega.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or heist.melissa@epa.gov, or Janet Kasper at (312) 866-3059 or
kasper.janet@epa.gov.
Enhanced Coordination Needed to Ensure                                                                                         12-P-0102
Drinking Water State Revolving Funds Are
Used to Help Communities Not Meeting Standards


                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background ................................................................................................................        1


   Noteworthy Achievements .........................................................................................                  2


   Scope and Methodology.............................................................................................                 2


   Increased Coordination Needed Between DWSRF Programs and 

   Enforcement ................................................................................................................       3


           DWSRF Funds Used to Assist Noncompliant Systems .......................................                                    4

           Some Systems With Highest Number of Violations

              Not Applying for DWSRF Funding.................................................................                         4

           Annual Reviews Do Not Assess State DWSRF Coordination 

              With Enforcement ..........................................................................................             7

           Enhanced Coordination Needed to Reach Some Systems With 

              Highest Number of Violations ........................................................................                   8


   Conclusion...................................................................................................................      9


   Recommendations .....................................................................................................              9


   Agency Response and OIG Evaluation ....................................................................                           10


   Status of Recommendations and Potential Monetary Benefits .............................                                           11




Appendices
   A       Agency Response to Draft Report....................................................................                       12 


   B       Distribution .........................................................................................................    17 

Purpose
            Congress created the Drinking Water State Revolving Fund (DWSRF) program to
            assist public water systems with upgrading infrastructure to ensure continued
            provision of safe drinking water. The program requires states to give priority to
            projects that address immediate risks to human health, are needed to ensure Safe
            Drinking Water Act (SDWA) compliance, and assist systems most in need. We
            sought to determine whether DWSRF funds are effectively used to assist
            communities that do not meet standards.

Background
            Congress established the DWSRF program in the 1996 amendments to the SDWA.
            The goal of the DWSRF program is to provide states (a) the means to establish a
            revolving fund to provide low-cost loans to public water systems, and (b) other
            funding through set-asides to further public health protection under the SDWA.
            In fiscal year (FY) 2010, the U.S. Environmental Protection Agency (EPA) allotted
            $1.36 billion for state DWSRF programs.

            EPA conducts an annual review of each state’s program to evaluate the
            effectiveness of the DWSRF program’s operations and to develop guidelines
            necessary to assure effective program management. EPA allots funding to the
            states based on need, in accordance with the SDWA. Need is assessed every
            4 years through EPA’s Needs Assessment Survey. Each fiscal year, EPA regions
            review and approve the state ranking systems, intended use plans (IUPs), and
            project lists to ensure compliance with the SDWA. At the end of the year, EPA
            regions perform annual reviews of the state programs and document these reviews
            in Program Evaluation Reports (PERs) that summarize findings. Periodically,
            EPA’s Office of Water in headquarters reviews regional oversight of state
            programs.

            EPA’s 2011–2015 Strategic Plan states that, “by 2015, 90% of community water
            systems will provide drinking water that meets all applicable health-based drinking
            water standards through approaches including effective treatment and source water
            protection.” This plan promotes (a) the construction of infrastructure that brings
            safe drinking water into the homes of small, rural, and disadvantaged communities;
            and (b) increased efforts to guard the nation’s critical drinking water infrastructure.
            EPA and states use the DWSRF to fund infrastructure construction.

            States are responsible for setting state funding priorities, developing the ranking
            criteria for project selection, and ranking the projects based on priority. States
            provide loans and other types of assistance to eligible water systems to finance the
            costs of infrastructure projects needed to achieve or maintain compliance with
            SWDA requirements. State DWSRF programs are annually required to develop
            an IUP that lists the projects eligible for DWSRF loans and the projects it plans to
            fund. SDWA Section 1452(b)(3)(A) states that, to the maximum extent


12-P-0102                                                                                       1
                     practicable, an IUP shall give priority for the use of DWSRF funds to projects
                     that:

                         •	 Address the most serious risks to human health
                         •	 Are necessary to ensure compliance with SDWA requirements
                         •	 Assist systems most in need on a per-household basis according to state
                            affordability criteria

                     The Drinking Water State Revolving Fund: Program Operations Manual states
                     that programs must include two priority lists with each IUP. The comprehensive
                     priority list includes all projects that are eligible for program assistance and have
                     submitted a preapplication for priority listing. The fundable project list identifies
                     projects expected to receive assistance in the upcoming year. The annual state
                     IUP must also include details on the state’s priority ranking system.

                     SDWA Section 1420 capacity development provisions provide a framework for
                     states and water systems to work together to ensure that systems acquire and
                     maintain the technical, managerial, and financial capacity needed to meet the
                     Act’s public health protection objectives.

Noteworthy Achievements
                     The project priority ranking systems for the states we reviewed—Missouri and
                     Oregon—complied with the SDWA requirement that funding priority be given to
                     projects that address the most serious risk to human health, are necessary to
                     ensure compliance with SDWA requirements, and assist systems most in need.
                     For FY 2010, the states we reviewed ranked the projects in accordance with
                     established project priority ranking system criteria. EPA’s DWSRF reporting
                     system shows that nationally for FY 2010, 82 percent of DWSRF infrastructure
                     funding went to projects to bring drinking water systems into compliance and to
                     assist systems to maintain compliance with drinking water standards and other
                     requirements of the SDWA.1 Through the DWSRF set-asides, the states can also
                     conduct outreach and provide technical and capacity development assistance to
                     drinking water systems, including small and disadvantaged communities. For the
                     fiscal years we reviewed, we found that Oregon intended to use 30 percent and
                     Missouri intended to use the full 31 percent of federal capitalization grant funds
                     for such activities.

Scope and Methodology
                     We conducted this performance audit from February to November 2011 in
                     accordance with generally accepted government auditing standards issued by the
                     Comptroller General of the United States. Those standards require that we plan
                     and perform the audit to obtain sufficient, appropriate evidence to provide a

1
    The audit did not verify the data for accuracy, as it was not part of the scope of the review.


12-P-0102                                                                                                    2
                 reasonable basis for our findings and conclusions based on our audit objective.
                 We believe that the evidence obtained provides a reasonable basis for our findings
                 and conclusions based on our audit objective.

                 We selected two states to review—Missouri and Oregon—based on the highest
                 percentage of systems in violation of health-based standards and the total
                 population served that was listed in the Safe Drinking Water Information System
                 (SDWIS) for 2008 and 2009.2 We used the highest number of SDWIS violations
                 because we believe systems with the most violations are also likely in need of
                 technical, financial, and managerial capacity. For the two states, we interviewed
                 state DWSRF and Public Water System Supervision (PWSS) staff; reviewed
                 supporting documentation for a sample of projects from the state project priority
                 lists; and compared comprehensive and fundable project lists to SDWIS inventory
                 and violations data. To assess internal controls, we obtained data from the
                 Drinking Water National Information Management System (DWNIMS) and
                 reviewed the Agency’s quality assurance plans or procedures associated with both
                 SDWIS and DWNIMS. We did not assess the reliability of the data in SDWIS or
                 DWNIMS, because we did not rely on those data to form our conclusions and
                 recommendations.

                 We reviewed the relevant federal law, regulations, and guidance. We interviewed
                 EPA staff from the Office of Water, Office of Enforcement and Compliance
                 Assurance, and Regions 7 (for Missouri) and 10 (for Oregon) regarding the EPA
                 IUP approval process, annual review process, and EPA influence over state
                 project selection. There are 51 DWSRF programs, for 50 states and Puerto Rico.3
                 We analyzed the 51 most recently completed regional PERs and associated
                 checklists to assess any relevant trends identified in EPA’s annual reviews of
                 DWSRF programs.4

                 There were no prior audits related to our objective.

        Increased Coordination Needed Between DWSRF Programs and
        Enforcement
                 EPA and the states use DWSRF funds to assist communities that do not meet
                 drinking water standards and to assist other communities in maintaining
                 compliance with drinking water standards. Noncompliance by some community
                 systems with the highest number of health-based violations is being resolved
                 through other means, such as through consolidation with other systems,
                 enforcement actions, technical assistance, or other funding sources. Some of these

2
  The audit team used SDWIS data. SDWIS captures violation data at particular points in time, so the nature of the 

violations may have changed over time. 

3
  Washington, DC, is not included in the count of traditional DWSRF programs. EPA does not complete a PER for 

Washington, DC. 

4
  As of May 6, 2011, Region 2 did not complete a checklist for New Jersey. The most recently completed PERs and 

checklists were for FY 2009. 



12-P-0102                                                                                                         3
            systems were not always aware of the DWSRF program. SDWA requires that
            funding priority be given to projects that address the most serious risk to human
            health, are necessary to ensure SDWA compliance, and assist systems most in
            need. The EPA regions we reviewed did not have discussions with states about
            specific systems in violation of SDWA when reviewing state IUPs and project
            priority lists, or when conducting annual reviews. While it is encouraging that
            systems with the highest number of health-based violations are resolving their
            problems, enhanced coordination between EPA and the states, when considering
            available funding, would further support the best use of DWSRF funds to achieve
            the Agency’s strategic objective of making water safe to drink.

            DWSRF Funds Used to Assist Noncompliant Systems

            DWSRF funding assists drinking water systems that do not meet drinking water
            standards in several different ways:

               •	 DWSRF Infrastructure Loans: EPA’s DWSRF program tracks DWSRF
                  funding nationally and by state through the DWNIMS. States report to the
                  DWNIMS database annually. The DWNIMS data show that nationally for
                  2010, 82 percent of DWSRF infrastructure funding went to projects to
                  bring drinking water systems into compliance (29 percent) and to assist
                  systems to maintain compliance (53 percent) with the SDWA, contributing
                  to the Agency’s Strategic Plan “water safe to drink” subobjective.

               •	 DWSRF Set-Aside Funding: The SDWA allows states to use up to
                  31 percent of each federal capitalization grant for various activities. States
                  can use the funds to provide drinking water systems with technical,
                  financial, and managerial assistance that they may need to achieve or
                  maintain compliance.

            Our review found that Missouri and Oregon rank projects according to priorities
            set forth in the SDWA. The project priority ranking systems for the states we
            reviewed complied with the SDWA requirement that funding priority should be
            given to projects that (1) address the most serious risk to human health, (2) are
            necessary to ensure compliance with SDWA requirements, and (3) assist systems
            most in need. The states we reviewed ranked their projects in accordance with
            those approved project priority ranking systems.

            Some Systems With Highest Number of Violations Not Applying for
            DWSRF Funding

            DWSRF infrastructure loans are not the only tool in addressing systems with the
            highest number of SDWA violations. According to the Office of Water, the
            number of violations that a system has does not necessarily equate to an
            infrastructure need. Systems fail to meet standards for a variety of reasons, some
            of which are not amenable to resolution through DWSRF funding. For cases in



12-P-0102                                                                                        4
            which noncompliance is related to managerial or operational deficiencies,
            consolidation, enforcement actions, or other options may be considered. Further,
            some systems did not have contact with the state DWSRF program. However,
            EPA stated that systems with the highest number of violations may be best served
            by technical assistance rather than capital financing. If a state can use other
            methods to bring a system back into compliance more quickly than capital
            financing, the Office of Water encourages those methods.

            States are funding systems with violations, but not necessarily the systems with
            the highest number of violations. In the two states we reviewed—Missouri and
            Oregon—our comparisons between the SDWIS list of the top systems with
            health-based violations and the state FY 2010 comprehensive lists and fundable
            lists showed that not all systems with the highest number of violations were on the
            states’ latest fundable lists, as shown in table 1.

            Table 1: Comparison of SDWIS lists to comprehensive and fundable lists
                                                                                             No. of those
                             SDWIS list of systems           No. of those systems             systems on
                             with most health-based           on federal FY 2010           federal FY 2010
               State          violations 2008–2009            comprehensive list             fundable list
             Missouri                    20                             4                          0
                                                                                                       a
             Oregon                      16                             0                          0
            Source: OIG analysis of systems with most violations in FYs 2008–2010 SDWIS compliance data
            compared to state comprehensive and fundable lists associated with FY 2010 capitalization grant.
                    a	
                         Five of the 16 systems were funded by the DWSRF program in a prior fiscal year for
                         unrelated issues.

            The systems that we identified as having the most violations had between 1 and
            14 violations during 2008 and 2009, some of which could have long-term health
            effects. For example, prolonged exposure to violations of the total coliform rule
            can result in gastrointestinal illness and viruses; long-term exposure to arsenic can
            cause bladder, lung, and skin cancer. Total coliform and arsenic were among the
            violations identified in SDWIS for the systems with the most violations.

            In Missouri, of the 20 systems that had the highest number of violations in
            SDWIS for 2008–2009, 14 systems did not submit an application for a DWSRF
            loan. Most of the 14 systems resolved the violations by getting funding from other
            sources, but 3 of those 14 could not get the financial backing to support a DWSRF
            loan. Of the six cases that applied for a DWSRF loan, one could not get the
            financial backing for a DWSRF loan and the rest resolved the violations in other
            ways. Table 2 summarizes the 20 systems in Missouri.




12-P-0102                                                                                                      5
            Table 2: Missouri systems analysis
             Reasons for systems not receiving FY 2010 DWSRF funding                             No.
             No application; problem was resolved by private or state funding                        5
             No application; problem being addressed by state or EPA enforcement action              4
             No application; systems could not get financial backing for a loan (i.e., bonds)        3
             No application; project funded by the U.S. Department of Agriculture                    2
             Submitted application; problem resolved by consolidating with another system            2
             No application for FY 2010, but have since submitted an application; under              1
             state DWSRF consideration for funding
             No application for FY 2010, but engineer plans to submit application in a later         1
             year
             Submitted application; system cannot get financial backing                              1
             Submitted application; project was able to be funded by American Recovery               1
             and Reinvestment Act of 2009 DWSRF funds
             Total                                                                                   20
            Source: Responses from Missouri DWSRF staff or enforcement (PWSS) staff.

            In Oregon, of the 16 systems that had the highest number of violations in SDWIS
            for 2008–2009, 8 systems did not submit an application for a DWSRF loan. Most
            of those eight systems were able to identify other sources of funding. The
            remaining eight systems submitted loan applications to the DWSRF state
            program; they were funded either by DWSRF in another fiscal year or by the
            American Recovery and Reinvestment Act of 2009 for unrelated reasons. Table 3
            summarizes the 16 systems in Oregon.

            Table 3: Oregon systems analysis
             Reasons for systems not receiving FY 2010 DWSRF funding                             No.
             No application; no contact with state DWSRF program, or problem resolved by             5
             private funding or state capital improvement funds
             No application for FY 2010; received DWSRF funding in another fiscal year               5
             Submitted application; project funded by American Recovery and Reinvestment             3
             Act of 2009 DWSRF funds
             No application; aware of DWSRF program, problem resolved with private funds             1
             No application for FY 2010; previous problem resolved by technical assistance,          1
             recently submitted application; under state review for additional work that will
             require capital investment
             No application; system is now inactive                                                  1
             Total                                                                                   16
            Source: Responses from Oregon DWSRF staff or enforcement (PWSS) staff, and enforcement
            database review.

            A state can encourage noncompliant systems to submit Letters of Intent to the
            state DWSRF program. Once the community chooses to submit a letter, the state
            must rank the project above the funding line for that fiscal year, and then offer the
            community the option to submit an application. Once the community submits an


12-P-0102                                                                                                 6
            application to apply for the DWSRF loan, the state can review and rank the
            project to compile the state’s project priority list. In Missouri, the state issues a
            notice informing the public of the availability of DWSRF loan applications, and
            individual notifications are sent to all city water systems and water districts, as
            well as engineering firms, in the state. In Oregon, the state has established an
            outreach program to assist public water systems in developing technical,
            managerial, and financial capacity. However, the state said that the DWSRF
            capacity development program does not target systems that have the highest
            number of violations. As noted, of the eight systems with the highest number of
            violations that did not apply for DWSRF funding in Oregon, five systems did not
            have any contact with the DWSRF program.

            Annual Reviews Do Not Assess State DWSRF Coordination With
            Enforcement

            EPA annual reviews of state programs do not always assess whether the DWSRF
            program is coordinated with the state’s water enforcement or PWSS program. The
            annual review checklist of the states does not contain specific questions relating to
            coordination between the offices, and only 31 percent of the state performance
            reports indicated that the issue was addressed during the annual review.

            SDWA requires coordination between the DWSRF and enforcement programs.
            SDWA Section l452(g)(1)(B) requires that the authority to establish assistance
            priorities and carry out oversight and related activities remain with the primary
            agency, after consultation with other appropriate state agencies. The enforcement
            program analyzes information regarding the compliance status of drinking water
            systems. A system that is not complying with drinking water standards may need
            a DWSRF loan to make improvements to the system in order to come into
            compliance. In other cases, noncompliance can be addressed through
            consolidation with larger systems or enforcement actions at the state or EPA
            level.

            The EPA annual review checklist does not include a question about whether the
            state DWSRF program coordinates with state enforcement staff regarding systems
            in noncompliance when selecting projects for DWSRF funding. The checklist
            does include the following two questions:

               •	 Does the state have adequate procedures to ensure that systems in
                  significant noncompliance with any national primary drinking water
                  regulation are receiving funds only to achieve compliance?

               •	 Are set-aside funding activities coordinated with the overall goals of the
                  state’s public drinking water program?

            The annual review checklist does not include a review of coordination between
            state DWSRF and enforcement programs in relation to project selection for



12-P-0102                                                                                           7
                 DWSRF funding. Adding a specific checklist question to address this
                 coordination would help to ensure that the region, state DWSRF, and PWSS
                 programs enhance coordination to focus on achieving the Agency’s strategic
                 “water safe to drink” subobjective.

                 Our review of the latest regional annual DWSRF PERs and related review
                 checklists for all 51 DWSRF programs showed that 39 percent included
                 comments on state project selection or ranking criteria in general, but little to no
                 discussion on specific projects selected for funding or systems in noncompliance.
                 Of the 51 PERs we reviewed, EPA regions made only three comments on meeting
                 health-based standards. Further, some regions commented on the states’ selection
                 of projects and coordination with the enforcement program, but most did not, as
                 the checklist did not include specific questions about these areas. The PERs made
                 positive comments to indicate that a state program was performing well in an area
                 and negative comments to indicate that areas need improvement.
          Table 4: PER results for 51 DWSRF programs
                                                        Regional       % of total      Regional        % of total
                                                       comments:          51          comments:           51
            Comments category                           positive       programs        negative        programs
            Coordination with state enforcement/
            PWSS/other state entities                       16              31              0                 0
            Project selection/ranking criteria              15              29              5                 10
            Meeting health-based standards                   2              4               1                 2
          Source: OIG analysis. Results only reflect PERs/checklists that contained comments related to the
          specific categories.

                 Region 7 did not have discussions with its states about specific systems shown as
                 being in violation in the SDWIS database when reviewing IUPs and project
                 priority lists, or when conducting annual reviews of the state programs. Because
                 of this lack of discussion, EPA may be missing an opportunity to reach systems
                 that the state could assist through the program. EPA and states should discuss
                 systems that have not applied, and systems that possibly lack the capacity to
                 apply, to assess ways they can prepare these systems for funding. Regions do not
                 have a national IUP review checklist to use while approving state IUPs.

                 Enhanced Coordination Needed to Reach Some Systems With
                 Highest Number of Violations

                 In a 2006 memorandum, the EPA Office of Water emphasized to regional staff a
                 national priority for enhancing coordination between regional and state DWSRF
                 and PWSS programs, to focus on achieving the Agency’s strategic “water safe to
                 drink” subobjective.5 However, the Agency has not developed specific steps for
                 regions to implement this priority.

5
 Memorandum from Cynthia Dougherty, Director, Office of Ground Water and Drinking Water, to Water Division
Directors, “National Priorities for the Drinking Water State Revolving Fund Program,” August 21, 2006.


12-P-0102                                                                                                          8
            The regions and states should improve coordination with enforcement programs
            when considering DWSRF projects for funding. A 2007 headquarters review of
            Region 7 recommended that the region consider improving the links between
            enforcement and the DWSRF program. From our discussions, it appears that
            Region 7 has improved its coordination efforts. The Region 7 drinking water and
            enforcement programs discuss the enforcement tool results and encourage the use
            of DWSRF funding where appropriate.

            EPA enforcement staff has tools that could assist the Office of Water staff in
            identifying systems that may need assistance to comply with drinking water
            standards. For example, the EPA Office of Enforcement and Compliance
            Assurance has developed the Enforcement Targeting Tool to identify systems
            with SDWA violations and allow EPA to target those systems for enforcement or
            assistance. The EPA DWSRF program could use these Agency enforcement data
            and tools to identify noncompliant systems that may benefit from DWSRF
            funding.

Conclusion
            The DWSRF program is not taking full advantage of the data and tools that are
            available to identify noncompliant systems that may benefit from DWSRF
            funding. DWSRF may never reach some communities with the highest number of
            health-based drinking water violations because these communities have no
            contact with the state DWSRF office and are not aware of the program; they do
            not have technical, managerial, or financial capacity; or they cannot afford a loan.
            We found that some systems with the highest number of health-based violations
            are resolving noncompliance through other means, illustrating that DWSRF
            infrastructure loans are not the only tool for addressing SDWA violations. One
            EPA region and two states we reviewed stated that EPA does not have discussions
            with states about specific systems in violation of the SDWA when reviewing state
            IUPs and project priority lists, or when conducting annual reviews. The EPA
            DWSRF program should encourage enhanced coordination with enforcement
            programs and use the available Agency enforcement data and tools to identify
            noncompliant systems that may benefit from DWSRF funding. These actions
            would assist in achieving the Agency’s strategic “water safe to drink”
            subobjective.

Recommendations
            We recommend that the Assistant Administrator for Water:

                   1.	 In the regional annual review checklist that supports the PER, include
                       an assessment of the coordination between state DWSRF and
                       enforcement programs.



12-P-0102                                                                                       9
                   2.	 Create a national IUP review checklist that includes a requirement for
                       regions to assess how the state DWSRF programs take into
                       consideration the needs of systems with multiple violations when
                       developing the IUP and selecting projects.

                   3.	 To help achieve the Agency’s strategic “water safe to drink”
                       subobjective, identify and implement actions to enhance coordination
                       between regional and state DWSRF and PWSS programs.

Agency Response and OIG Evaluation

            EPA concurred with our recommendations and proposed the following corrective
            actions with a milestone date of March 31, 2012, to address these
            recommendations:

               •	 EPA will amend the annual review checklist to include appropriate
                  questions to assess the coordination between state DWSRF and
                  enforcement programs.

               •	 EPA will develop a national IUP review checklist that includes questions
                  to facilitate regional assessment of how state DWSRF programs take into
                  consideration the needs of systems with multiple violations, including
                  current compliance status and actions underway to address compliance,
                  when developing the IUP and selecting projects.

               •	 EPA will amend the regional annual review checklist to include
                  appropriate questions to assess the coordination between state DWSRF
                  and PWSS programs.

            In addition to the proposed corrective actions to address our recommendations
            above, EPA stated that its Office of Enforcement and Compliance Assurance
            coordinated closely with the Office of Water to provide a webinar on the
            Enforcement Targeting Tool to state counterparts in October 2011.

            In responding to the draft report, EPA provided additional comments to the text of
            the report. We made the necessary changes to the report based on the comments.

            The proposed actions meet the intent of the recommendations. EPA’s complete
            response is in appendix A.




12-P-0102                                                                                   10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                         Subject                           Status1      Action Official           Date      Amount      Amount

     1        9     In the regional annual review checklist that             O       Assistant Administrator    03/31/12
                    supports the PER, include an assessment of the                          for Water
                    coordination between state DWSRF and
                    enforcement programs.

     2       10     Create a national IUP review checklist that includes     O       Assistant Administrator    03/31/12
                    a requirement for regions to assess how the state                       for Water
                    DWSRF programs take into consideration the
                    needs of systems with multiple violations when
                    developing the IUP and selecting projects.

     3       10     To help achieve the Agency’s strategic “water safe       O       Assistant Administrator    03/31/12
                    to drink” subobjective, identify and implement                          for Water
                    actions to enhance coordination between regional
                    and state DWSRF and PWSS programs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0102                                                                                                                                     11
                                                                                  Appendix A

                  Agency Response to Draft Report

              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                           WASHINGTON, D.C. 20460


                                       October 31, 2011
                                                                                OFFICE OF WATER



MEMORANDUM

SUBJECT:      Draft Report Project No. OA-FY11-0180
              Enhanced Coordination Needed to Ensure Drinking Water State Revolving Funds
              Are used to Help Communities Not Meeting Standards

FROM:         Nancy K. Stoner
              Acting Assistant Administrator for Water

TO:           Melissa M. Heist
              Assistant Inspector General for Audit

        Thank you for the opportunity to comment on the draft report titled Enhanced
Coordination Needed to Ensure Drinking Water State Revolving Funds Are Used to Help
Communities Not Meeting Standards. The Drinking Water State Revolving Fund (DWSRF) is
an important program that enables states to provide affordable loans to water systems for needed
infrastructure improvements and also allows states to assist water systems in developing
technical, financial, and managerial capacity and becoming sustainable. Office of Ground Water
and Drinking Water (OGWDW) has coordinated with the Office of Enforcement and
Compliance Assurance (OECA) in reviewing and commenting on the draft report. EPA concurs
with the proposed recommendations and plans to address them as described below.

        Regarding the draft findings as presented on the “At A Glance” page, EPA would like to
emphasize that DWSRF funds may legally and appropriately be used to assist water systems in
maintaining as well as in achieving compliance. Please see the attached technical comments for
suggested wording. EPA also appreciates the effort that your office has made in the body of the
draft to clarify that funding infrastructure through the Drinking Water State Revolving Fund
(DWSRF) is not always the first or only answer to addressing water system non-compliance, and
that the number of violations that a water system has does not necessarily equate to an
infrastructure need.




12-P-0102                                                                                     12
        Our planned completion dates for the recommendations are as follows:

    1.	 In the regional annual review checklist that supports the PER, include an
        assessment of the coordination between state DWSRF and enforcement programs.
        Response: OSWDW will amend the checklist to include appropriate questions to assess
        the coordination between State DWSRF and enforcement programs. This amendment to
        the checklist will be completed by March 31, 2012. The revised checklist will be used by
        the Regions for their State oversight visits thereafter. Starting with OGWDW reviews of
        regional DWSRF programs in 2012, OGWDW will increase emphasis on assessing
        regional progress in working with state to enhance coordination between state DWSRF
        and enforcement programs.

    2.	 Create a national Intended Use Plan (IUP) review checklist that includes a
        requirement for regions to assess how the state DWSRF programs take into
        consideration the needs of systems with multiple violations when developing the IUP
        and selecting projects. Response: OGWDW will develop a national Intended Use Plan
        (IUP) review checklist that includes a section of questions to facilitate regional
        assessment of how state DWSRF programs take into consideration the needs of systems
        with multiple violations, including current compliance status and actions underway to
        address compliance, when developing the IUP and selecting projects. The national IUP
        review checklist will be developed by March 31, 2012. The new IUP checklist will be
        used by the regions for review of capitalization grant award packages undergoing review
        thereafter.

    3.	 To help achieve the Agency’s strategic “water safe to drink” sub-objective, identify
        and implement actions to enhance coordination between regional and state DWSRF
        and PWSS programs. Response: On August 21, 2006 OGWDW issued a
        memorandum to the regions on “National Priorities for the Drinking Water State
        Revolving Fund” and one of the four national priorities identified was “enhancing
        coordination between regional and state DWSRF and Public Water Supply Supervision
        (PWSS) programs to focus on achieving the Agency’s strategic ‘water safe to drink” sub-
        objective”. To ensure appropriate emphasis on this priority, OGWDW will amend the
        regional annual review checklist to include appropriate questions to assess the
        coordination between State DWSRF and PWSS programs. This amendment to the
        checklist will be completed by March 31, 2012. The revised checklist will be used by the
        Regions for their State oversight visits thereafter. OGWDW will also continue to
        emphasize this priority in its oversight of regional programs.

        If you have questions, please contact Cynthia Dougherty at (202) 564-3750 or have your
staff contact Charles Job, Infrastructure Branch Chief, at (202) 564-3941.

cc: 	   Cynthia Dougherty
        Janet Kasper
        Lisa Lund
        Mamie Miller
        Edward Messina



12-P-0102                                                                                     13
       Khadija Walker
       Michael Mason
       Marilyn Ramos

enclosure




12-P-0102               14
                   Office of Ground Water and Drinking / Office of Water and 

                       Office of Compliance and Enforcement Assurance 

            Joint Comments on OIG Project No. OA-FY11-0180 9/21/11 Draft Report 


Page “At a Glance” first sentence: “EPA and the states use DWSRF funds to assist communities
that do not meet in achieving or maintaining compliance with drinking water standards.”

Page 1, Line 3: “The program requires states to give priority to projects that are needed to
protect public health and ensure compliance with the Safe Drinking Water Act (SDWA),
especially those with great economic need and the most serious health problems that address
immediate risks to human health, are needed to ensure SDWA compliance or assist systems most
in need on a per household basis.”

Page 3, Line 14: Regarding the OIG report reference to SDWIS “compliance lists” –SDWIS
contains data on violations (non-compliance) of water systems as well as water system
descriptive data. We suggest that you use the terminology “inventory and violations data.”

Page 3, last paragraph, 1st sentence: “EPA and the state use DWSRF funds to assist communities
that do not meet in achieving or maintaining compliance with drinking water standards.”

Page 3, next to last full sentence: The sentence contains the phrase “change this sentence to what
is in the AGG.” This seems to be a typo and should be removed.

Page 4, line 5 to end of paragraph: The draft states that “while it is encouraging that systems
with the highest number of health-based violations are resolving their problems, enhanced
coordination between EPA and the states, when considering available funding, would increase
the likelihood that systems with the highest number of health-based violations receive DWSRF
funds as needed. This would ensure the best use of DWSRF funds and that the Agency’s
strategic objective of making water safe to drink is achieved.” These statements imply that a
water system with a high number of violations needs capital to address the source of the
violations when such a system may be better served through technical assistance such as through
a DWSRF set-aside. States may have more expedient and effective means to return systems to
compliance or may find that funds are best used to assist systems in maintaining compliance to
achieve the strategic objective of ensuring that water is safe to drink. We also have concerns
about the use of “highest number of health-based violations” as the sole metric to identify the
most serious non-compliance. The Enforcement Targeting Tool (ETT), which has been the
Agency’s enforcement priority setting tool for over a year, is based on a combination of various
factors including the number of violations at a system, the type of violations and how long the
violations have been unaddressed when determining the seriousness of non-compliance. We
recommend amending the draft to say that “while it is encouraging that systems with the highest
number of health-based violations are resolving their problems, enhanced coordination between
EPA and the states, when considering available funding, would increase the likelihood that
systems with the highest number of health based violations receive DWSRF funds as needed.
This would ensure further support the best use of DWSRF funds and that to achieve the
Agency’s strategic objective of making water safe to drink is achieved.”




12-P-0102                                                                                      15
Page 5, first full paragraph: The report notes that “States are funding systems with violations, but
not necessarily the systems with the highest number of violations.” However, systems with the
highest number of violations may not be best served by capital financing but rather by technical
assistance. If a state can use other methods to bring a system back into compliance more quickly
than capital financing, those methods are encouraged.

Page 5-6: The report summarizes the relationship of DWSRF applications by water systems in
MO and OR relative to other sources of funding and problem resolution for water systems
looked at in the two states. Tables 2 and 3 indicate that all the water systems looked at were able
to resolve the problems through the DWSRF, financing through other sources or closing the
system in all but one out of 36 such systems. The key point from a public health perspective is
that resolution was achieved in nearly all cases regardless of the source of financing. The
DWSRF is not intended to provide financing to every water system needing capital investment to
address supplying safe water. The tables show that there are alternative paths to resolution of
health issues at water systems and one of them is the DWSRF.

Page 8, last full paragraph: This paragraph focuses on the lack of discussions by Region 7 with
States to address specific systems and their financing need. Again, the selection of water
systems to receive financing is a state function guided by the scoring and ranking based on the 3
factors specified in the SDWA.

Pages 8 bottom and 9 top: The report suggests that EPA has not developed specific steps
relating the DWSRF to the PWSS program for Regions to address the priority of the Agency’s
strategic “water-safe-to-drink” sub-objective. The Agency has developed several means for
Regions to implement this priority through the DWSRF: through the IUP development reliance
on the three priorities of SDWA with the Region’s review and approval; through the use of the
annual review checklist during Headquarters’ review of the Region’s DWSRF program; and
through the review by the Regional PWSS program of states accomplishment of capacity
development strategies and operator certification programs to enable states to receive full
DWSRF capitalization grants each year.

Page 9, second full paragraph: The report cites the new Enforcement Targeting Tool (ETT) to
indentify water systems with SDWA violations that may be useful in informing state and
Regional DWSRF programs about systems which may need either capital financing or technical
assistance through the DWSRF or other relevant programs to achieve compliance with SDWA.
EPA’s enforcement program is working with its PWSS program to incorporate the ETT results in
relevant processes such as capacity development strategies review, replacing the approach
previously resulting in water systems being designated in “significant non-compliance” under
prior violation screening methods. EPA’s Office of Enforcement and Compliance Assurance
(OECA) coordinated closely with the OW to provide a webinar on the ETT to state counterparts
in October 2011. The training materials are now available to states on the internet. EPA’s OW
and OECA will continue to look for additional opportunities to increase awareness of enhanced
coordination between the programs.




12-P-0102                                                                                        16
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Acting Assistant Administrator for Water
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Regional Administrator, Region 7
Regional Administrator, Region 10
Regional Audit Follow-Up Coordinator, Region 7
Regional Audit Follow-Up Coordinator, Region 10




12-P-0102                                                                             17
